<html>
<title> - FY 2022 BUDGET PRIORITIES: MEMBERS' DAY</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                FY 2022 BUDGET PRIORITIES: MEMBERS' DAY

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, D.C., MARCH 23, 2021

                               __________

                            Serial No. 117-1

                               __________

           Printed for the use of the Committee on the Budget
           
           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]           


                       Available on the Internet:
                            www.govinfo.gov
                            
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-494                     WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
                            
                            
                        COMMITTEE ON THE BUDGET

                  JOHN A. YARMUTH, Kentucky, Chairman
HAKEEM S. JEFFRIES, New York         JASON SMITH, Missouri,
BRIAN HIGGINS, New York                Ranking Member
BRENDAN F. BOYLE, Pennsylvania,      TRENT KELLY, Mississippi
  Vice Chairman                      TOM McCLINTOCK, California
LLOYD DOGGETT, Texas                 GLENN GROTHMAN, Wisconsin
DAVID E. PRICE, North Carolina       LLOYD SMUCKER, Pennsylvania
JANICE D. SCHAKOWSKY, Illinois       CHRIS JACOBS, New York
DANIEL T. KILDEE, Michigan           MICHAEL BURGESS, Texas
JOSEPH D. MORELLE, New York          BUDDY CARTER, Georgia
STEVEN HORSFORD, Nevada              BEN CLINE, Virginia
BARBARA LEE, California              LAUREN BOEBERT, Colorado
JUDY CHU, California                 BYRON DONALDS, Florida
STACEY E. PLASKETT, Virgin Islands   RANDY FEENSTRA, Iowa
JENNIFER WEXTON, Virginia            BOB GOOD, Virginia
ROBERT C. ``BOBBY'' SCOTT, Virginia  ASHLEY HINSON, Iowa
SHEILA JACKSON LEE, Texas            JAY OBERNOLTE, California
JIM COOPER, Tennessee
ALBIO SIRES, New Jersey
SCOTT H. PETERS, California
SETH MOULTON, Massachusetts
PRAMILA JAYAPAL, Washington

                           Professional Staff

                      Ellen Balis, Staff Director
                  Mark Roman, Minority Staff Director
                                
                                
                                CONTENTS

                                                                   Page
Hearing held in Washington, D.C., March 23, 2021.................     1

    Hon. John A. Yarmuth, Chairman, Committee on the Budget......     1
        Prepared statement of....................................     3
    Hon. Jason Smith, Ranking Member, Committee on the Budget....     5
        Prepared statement of....................................     7
    Hon. Michael Cloud, a Representative in Congress from the 
      State of Texas.............................................    10
        Prepared statement of....................................    13
    Hon. Paul Tonko, a Representative in Congress from the State 
      of New York................................................    18
        Prepared statement of....................................    20
    Hon. Robert J. Wittman, a Representative in Congress from the 
      Commonwealth of Virginia...................................    22
        Prepared statement of....................................    24
    Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
      District of Columbia.......................................    28
        Prepared statement of....................................    30
    Hon. Garret Graves, a Representative in Congress from the 
      State of Louisiana.........................................    32
        Prepared statement of....................................    34
    Hon. Derek Kilmer, a Representative in Congress from the 
      State of Washington........................................    36
        Prepared statement of....................................    39
        Article submitted for the record.........................    43
    Hon. William R. Timmons, IV, a Representative in Congress 
      from the State of South Carolina...........................    45
        Prepared statement of....................................    48
    Hon. Gwen Moore, a Representative in Congress from the State 
      of Wisconsin...............................................    50
        Prepared statement of....................................    52
    Hon. Ed Case, a Representative in Congress from the State of 
      Hawaii.....................................................    58
        Prepared statement of....................................    60
    Hon. Lauren Boebert, a Representative in Congress from the 
      State of Colorado..........................................    64
        Prepared statement of....................................    66
    Hon. John B. Larson, a Representative in Congress from the 
      State of Connecticut.......................................    68
        Prepared statement of....................................    70
    Hon. Sheila Jackson Lee, a Representative in Congress from 
      the State of Texas.........................................    80
        Prepared statement of....................................    83
        Article submitted for the record.........................    93
    Hon. Louis Gohmert, a Representative in Congress from the 
      State of Texas.............................................    99
      No prepared statement submitted for the record.              
               ..................................................
    Additional statements submitted for the record...............   102

 
                FY 2022 BUDGET PRIORITIES: MEMBERS' DAY

                              ----------                              


                         TUESDAY MARCH 23, 2021

                           House of Representatives
                                    Committee on the Budget
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:32 a.m., via 
Zoom. Hon. John A. Yarmuth [Chairman of the Committee] 
presiding.
    Present: Representatives Yarmuth, Boyle, Doggett, Kildee, 
Plaskett, Wexton, Jackson Lee; Smith, Boebert, Donalds, 
Feenstra, Good, and Obernolte.
    Chairman Yarmuth. The hearing will come to order. Good 
morning and welcome to the Budget Committee's Members' Day 
hearing. I look forward to this annual hearing because it gives 
us the opportunity to hear from our colleagues on the budget 
issues of great importance to them. We appreciate the Members 
who are taking time to appear before the Committee this morning 
and we look forward to your testimony.
    We are holding this proceeding virtually in compliance with 
regulations for committee proceedings pursuant to House 
Resolution 965 carried over to the 117th Congress via House 
Resolution 8.
    I would like to remind Members that we have established an 
email inbox for submitting documents before and during 
committee proceedings and we have distributed that email 
address to your staff.
    Consistent with regulations, the chair or staff designated 
by the chair may mute participants' microphones when they are 
not under a recognition for the purposes of eliminating any 
inadvertent background noise. Members are responsible for 
unmuting themselves when they seek recognition. We are not 
permitted to unmute Members unless they explicitly request 
assistance. If I notice that you have not unmuted yourself I 
will ask if you would like staff to unmute you. If you indicate 
approval by nodding, staff will unmute your microphone. We will 
not unmute your microphone under any other conditions.
    Members must have their cameras on and be visible on screen 
in order to be recognized. Members may not participate in more 
than one committee proceeding simultaneously.
    Now, I will yield myself five minutes for an opening 
statement.
    Good morning and welcome to the Budget Committee's Members' 
Day hearing. Members' Day is a longstanding tradition in the 
Budget Committee.
    Drafting the budget resolution is not an easy task, so I 
look forward to this hearing because it gives us the 
opportunity to directly hear the priorities of our colleagues.
    This year's hearing, while virtual, will provide Members 
with the same dedicated platform to voice their ideas, 
concerns, and aims. While we all look forward to returning to 
pre-pandemic life and serving the American people from our 
Cannon hearing room, in order to continue to prioritize the 
health and safety of Members, staff, witnesses, the court 
reporter, members of the media, House recording studio staff, 
and others, we will continue to conduct official committee 
business virtually until the public health experts advise us 
otherwise.
    Before we get to our witnesses I want to say that I am 
beyond proud of the Budget Committee's central role in enacting 
President Biden's American Rescue Plan. Because of our work 
relief checks are already being deposited into Americans bank 
accounts, furloughs have already ended for tens of thousands of 
workers, the unemployment compensation cliff was averted, and 
our economic future is bright. And now, hopefully, with an end 
to this pandemic in sight, Congress must keep our focus on 
addressing the economic fallout that has hurt so many American 
workers, families, communities, and our economy.
    Good governing and smart budgeting require that we be 
honest about what we face as a nation, that we recognize that 
low inflation and persistently low interest rates give us the 
fiscal space needed to make responsible and substantial 
investments in our country. If we are to best serve the 
American people we must start this process by evaluating how we 
can use this fiscal space to foster a strong, inclusive, and 
stable recovery from this pandemic, rebuild a better, fairer 
economy than we have had before.
    Now we can use our resources to ensure that every American 
child is fed, has a home to fall asleep in each night, and the 
education needed to reach his or her fullest potential. This is 
about leveraging the predicted explosion and economic growth 
following the American Rescue Plan to prevent a jobless 
recovery, it is about generating new opportunities so 
hardworking Americans can provide for their families today and 
long into the future, ensuring that after a lifetime of work 
Americans have the safe and secure retirement they have been 
promised.
    To build a budget to serve our nation our Committee will 
get as much input as possible. We will listen to our 
constituents, review the President's budget request, review 
views and estimates from authorizing committees, and hear from 
outside experts and advocates. At the end of this process our 
goal is to construct a budget that reflects American priorities 
and meets our country's needs.
    This hearing is about a piece of the process.
    I am excited about the important work ahead of us and I 
look forward to working alongside our Committee Members, the 
Ranking Member, House leadership, the Biden-Harris 
Administration, and all of my House colleagues to lead our 
nation forward.
    I would also like to thank Members for taking time out of 
their busy schedules and appearing before the Committee today.
    With that, I would like to yield to the Ranking Member, Mr. 
Smith of Missouri, for his opening remarks.
    [The prepared statement of Chairman Yarmuth follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Smith. Mr. Chairman, thank you for holding today's 
Member Day hearing.
    This Committee and its Members have been rather busy these 
past few weeks. Unfortunately, it is regretful that a lot of 
that work was done with the aim of pushing a nearly $1.9 
trillion bailout bill out the door as quickly as possible, 
affording as little amount of debate, forethought, or review of 
existing resources as possible. On the last point, Republican 
Members of this Committee have called for an accounting of the 
approximately $1 trillion from previously enacted COVID 
packages still unspent, an accounting we should have had before 
another $1.9 trillion was signed into law.
    Going forward, this Committee has a responsibility and 
obligation to American taxpayers to provide thorough oversight 
of the now $3 trillion in taxpayer money approved in the last 
90 days alone.
    Now we are hearing of an unelected, non-Senate-confirmed 
czar based in California overseeing this fund. What will their 
reporting obligation be to this Committee? What reports will 
they produce? How will they measure success? When will we know 
if some of this money can be returned to the taxpayer? The 
American people are owed at least that level of transparency.
    Speaking of transparency, since taking office, President 
Biden has found time to enact a sweeping series of executive 
orders, some of which fired American workers and others have 
worsened a crisis at the southern border by ending things like 
the stay in Mexico policy, a return to catch and release, and 
even rolling back the emergency declaration at the southern 
border and halting wall construction.
    The President has also found time to travel the country 
telling Americans that Washington just borrowed another $1.9 
trillion to spark a recovery that is actually already 
occurring. Sadly, apparently he's found no time to send 
Congress a budget to account for these and future policies. In 
fact, it has been 50 days--50 days--since President Biden was 
supposed to submit a budget under the deadline established by 
the `74 Budget Act. As of March 16, President Biden now holds 
the record for the latest a president has ever submitted a 
first year in office budget outline to Congress in the modern 
budget era. We haven't even received an outline of a plan, or, 
for that matter, a date certain when we will see a budget.
    This is not just some exercise, budgets matter. As Speaker 
Pelosi likes to say, show me your budget, show me your values. 
What are we then to take by a lack of budget from the President 
over 60 days into his presidency?
    It is my understanding, Mr. Chairman, that you all plan to 
do a Fiscal Year 2022 budget just as soon as you see something 
from the President. I hope you will push as strongly as we have 
to get such a budget from the President and so we can get this 
important process moving forward in a serious and transparent 
manner.
    It is no secret that Democrats wish to impose some form of 
a green new deal like program on America, as well as a broader 
Washington intrusion into our healthcare. Just yesterday it was 
reported the Administration is considering a $3 trillion plan 
covering any number of policy areas. There has been plenty of 
talk about raising taxes. Where is the budget plan for all of 
that? Where is the accounting for how high those taxes will 
need to go or debt will need to rise to satisfy that agenda? 
Right now, we don't know. We don't know because the Biden 
Administration has not shown the American people a plan. And we 
need to look no further than the current crisis at the border 
for why such transparency matters to policymaking.
    It is costing taxpayers roughly $775 per day to provide 
room and board for each unaccompanied minor who crosses the 
southern border. More than 9,000 minors came in February 2021. 
At just the current rate, the projected cost just this year to 
care for minors crossing the border is $9 billion. By 
comparison, we spend roughly $35 per student per day for K-12 
education in this country. So we are spending 22 times that 
cost per day per child at the border. This is the result of the 
actions, or lack of actions, we see from the Administration 
when it comes to our border.
    But those harmful policies are part of a broader agenda for 
which we need an accounting from the Biden Administration.
    Thank you, Mr. Chairman, and I look forward to working with 
you as we carry out the duties and responsibilities of this 
Committee.
    [The prepared statement of Jason Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you, Mr. Smith, for your opening 
statement.
    As a reminder, Members appearing before the Committee today 
will have five minutes to give their oral remarks and their 
written statements will be made part of the formal hearing 
record. In addition, Members of the Committee will be permitted 
to question witnesses following their statements. And out of 
consideration of our colleagues' times, I would ask that you 
please keep your comments brief.
    We will have four separate panels today, each one with 
three Members, three of our colleagues.
    I would now like to call up our first panel, the gentleman 
from Texas, Mr. Cloud, the gentleman from New York, Mr. Tonko, 
and the gentleman from Virginia, Mr. Wittman.
    Without objection, any written documents you submit to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="175f5554737874627a72796364577a767e7b395f7862647239707861">[email&#160;protected]</a> before the end of the day will be 
entered into the record.
    Without objection, so ordered.
    Now, I would like to recognize the gentleman from Texas, 
Mr. Cloud for five minutes. You may begin when you are ready.

 STATEMENT OF HON. MICHAEL CLOUD, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Cloud. Thank you, Chairman Yarmuth thank you, Ranking 
Member Smith. Thank you for working with us to be able to 
present this today. I always look forward to this day.
    I am in rural Texas, so this will be a good case for rural 
broadband as well. We will see how that goes.
    Thanks again for having us today. This Committee is tasked 
of course with the important constitutional obligation placed 
on Congress in Article 1, Section 8 to determine how much 
revenue should be collected from taxpayers and how it should be 
spent.
    The budget process is vital because it is within that 
budget framework that we evaluate proposed legislation to 
ensure we are spending within agreed upon spending limits. At 
least that is how it is supposed to work.
    Last year and the year before I came to talk to you about a 
bill I introduced, H.R. 638, the Cost Estimates Improvement 
Act, which would require the CBO and JCT to include debt 
servicing costs in their estimates. I asked that you include it 
as part of the Fiscal Year 2020 and the Fiscal Year 2021 budget 
process. I have reintroduced that bill again and ask you to 
consider it as part of the Fiscal Year 2022 budget process.
    I promise you that should the Committee include my 
legislation and enact it into law I will not come again next 
year. If not, I may be here again next year.
    So, Mr. Chairman, I do not have the luxury of ignoring the 
true costs of our spending decisions. Our nation's outstanding 
debt is $28 trillion. For reference, when I testified a little 
over a year ago, our nation's debt stood at $23.4 trillion. 
What is worse is should the Senate pass and the President sign 
the bill that was approved by the House last week to 
essentially exempt $1.9 trillion from having to be paid for, it 
would add that straight to the nation's debt.
    These numbers are big, it is hard for the average person to 
comprehend, but they represent a real threat to our nation's 
financial future. And as we are increasing the deficit--these 
alarming rates--without a full and complete picture of the 
legislation we are voting on in Congress, because we regularly 
do not consider the interest costs.
    As the Committee for a Responsible Federal Budget pointed 
out just a couple of weeks ago, this year the federal 
government will spend $300 billion on interest payments on the 
national debt. This is the equivalent of nearly nine percent of 
all federal revenue collection and over 2400 per household. The 
federal government spends more in interest than on science, 
space, technology, transportation, and education combined. The 
household share of federal interest is larger than the average 
household's spending on many typical expenditures, including 
gas, clothing, education, or personal care.
    The folks back home understand this. If they were budgeting 
for a monthly car payment, and only considered the list price 
of the car itself and didn't factor in the extra cost for the 
interest payments, they might discover they actually couldn't 
afford the car.
    In essence, this is what Congress does each and every year 
as we consider proposals that do not include the interest 
costs. This distorts congressional decisionmaking in favor of 
more spending and debt accumulation than otherwise might be the 
case.
    Simply put, including the debt servicing costs in 
legislation will better equip lawmakers to make informed 
spending decisions.
    My legislation also does one important thing. It would 
require estimates to include a list of duplicate programs with 
the covered legislation. If cost estimates were required to 
point out such duplication it might give Members pause before 
voting to spend taxpayer dollars to create more duplicate 
programs or expand existing programs that duplicate others.
    But the good news is that while the legislation required 
consideration of interest costs is preferred, we do not need to 
wait for legislation to pass for us to begin to count the real 
cost of proposed legislation. Last year I sent both the 
Chairman and Ranking Member of this body, as well as your 
counterparts in the Senate, a bipartisan letter signed by 
myself and 56 colleagues--I will be leading a similar letter 
this year. On the letter we asked that you direct the 
Congressional Budget Office to begin including debt servicing 
costs in all legislative cost estimates produced.
    Mr. Chairman, reigning in our debt and deficits only gets 
harder the longer we wait. That is in part because our interest 
rates have been historically low. Again, as the Committee for a 
Responsible Federal Budget pointed out just a couple of weeks 
ago, higher interest rates will mean higher interest payments 
and deficits. For example, if the interest rates were one 
percent higher than projected, for all of 2021 interest costs 
would total $530 billion. More than the cost of Medicaid. If 
interest rates were two percent higher, interest costs would 
total $750 billion, which is more than the federal government 
spends on defense or Medicare.
    We owe it to our constituents, particularly future 
generations, to make spending decisions with the most accurate 
information possible. This isn't a red or blue issue, a 
Republican or Democrat issue, this is simply good governance.
    I hope you consider these cost estimate reforms as an 
important step toward improving our budget process. And thank 
you again for the opportunity for myself and other Members to 
appear before you today.
    [The prepared statement of Michael Cloud follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you, Mr. Cloud, for your testimony.
    Members who have your cameras on may now unmute to ask 
questions. Does any Member of the Committee wish to ask a 
question of Mr. Cloud?
    Mr. Cloud. No.
    Chairman Yarmuth. Seeing none, I now yield five minutes to 
the gentleman from New York, Mr. Tonko. Welcome to the 
Committee, Mr. Tonko.

STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF NEW YORK

    Mr. Tonko. Thank you and good morning, Chairman Yarmuth and 
Ranking Member Smith and Members of the Committee. Thank you 
for the work on the American Rescue Plan. It has been a great 
help to my district. Thank you for this opportunity to testify 
on the Fiscal Year `22 budget resolution.
    America faces many interesting national challenges. 
Congress must advance a budget resolution that reflects this. 
President Biden understands that reducing climate pollution is 
not just scientifically necessary, it is also a once in a 
lifetime opportunity to propel our economy forward by investing 
in programs that put millions of Americans to work rebuilding 
our roads, bridges, electric grid, water systems, broadband 
networks, and buildings. The President has called this ``build 
back better.''
    To me, build back better means rebuilding our economy for a 
more competitive future, not the fading dynamics of the past. 
America's new generation of global economic leadership starts 
with supporting new technologies, advanced manufacturing and 
resilient infrastructure that we incorporate in every 
community. Certainly, taking bold action now will make us 
healthier, safer, and more competitive for the rest of this 
century.
    I propose three principles for our build back better 
budget. Jobs. Focus on smart, strategic investments that create 
and retain American jobs while modernizing our infrastructure, 
reducing pollution, and enhancing U.S. competitiveness, 
specifically by strengthening domestic manufacturing and 
associated supply chains.
    American workers. Support American workers by ensuring 
every project built with federal funding upholds strong 
domestic content and prevailing wage requirements. Where 
appropriate, major projects should incorporate project labor 
agreements and other pro-worker practices.
    Better healthier outcomes for everyone, promote equity and 
environmental justice with investments that reach into every 
community. We can certainly start by ensuring universal access 
to clean water, clean air, and opportunities to share in energy 
prosperity. Congress should seek to fulfill President Biden's 
Justice 40 commitment.
    With congressional leadership we can have every child in 
America get a pollution free ride to school on a clean, safe, 
American made bus. We can remove every lead service line from 
our drinking water systems and provide clean water for every 
American. We can put our building trades to work building 
resilient, next generation infrastructure, including a smart 
electric grid and vast, clean electricity resources. We can 
invest in America's researchers and manufacturers to develop 
innovative technologies and ensure America reaps those rewards 
of these emerging industries. We know this will create new 
economic opportunities across our country if we are willing to 
make this commitment.
    My district is an example of this. We are hundreds of miles 
from any offshore wind site, but because New York's commitment 
to wind energy, the Port of Albany will soon become home to 
hundreds of new manufacturing jobs. With this in mind, the 
Energy and Commerce Committee has developed several proposals 
to make investments in our transition to a resilient, clean 
economy covering dozens of programs at the EPA and the DOE.
    Finally, I would caution against a myopic focus on shovel 
ready projects. While we certainly want to maximize job 
creation in our public investments, shovel ready requirements 
can worsen the growing divide that exists between communities 
that are thriving and those that are struggling. Larger and 
wealthier communities are the ones that can afford the design 
and engineering work needed for a potential project to become 
shovel ready. We need to ensure disadvantaged communities 
receive funding for this critical early stage work.
    In the 2009 Recovery Act some of the most impactful 
investments, including the very first ARPA-E grants, had a 
longer time horizon but still delivered significant benefits.
    Mr. Chair, we find ourselves at a moment of profound need, 
not just for climate action, for vast rebuilding of our economy 
and our institutions. This budget
    [inaudible] is an opportunity for us to meet that need, if 
we intend to lead this nation in ways that avoid the most 
dangerous and irreversible aspects of climate change we cannot 
wait. But for as much as we stand to lose from inaction, we 
stand to gain even more from a transition to a clean economy 
that will create existing opportunities that will benefit 
America's workers and communities, that is if we act boldly and 
thoughtfully.
    I believe we must be prepared to deliver these investments 
through whatever process or procedure is available to us. I 
urge you to advance a budget resolution that reflects this 
moment of national need for all of us and for generations that 
will follow.
    I again thank you for the opportunity to testify.
    [The prepared statement of Paul Tonko follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you, Mr. Tonko.
    Does any Member have a question they would like to pose to 
Mr. Tonko?
    Seeing none, I now--thank you, Mr. Tonko.
    Mr. Tonko. Thank you.
    Chairman Yarmuth. I now welcome Mr. Wittman of Virginia to 
the Committee and yield five minutes to him for his statement.

 STATEMENT OF ROBERT J. WITTMAN, A REPRESENTATIVE IN CONGRESS 
               FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Wittman. Well, thank you, Chairman Yarmuth and Ranking 
Member Smith. I really appreciate you allowing me to testify 
before you and the Members of the Budget Committee today.
    And I am honored to highlight some of the perspectives I, 
as well as my constituents have, to improve the operations of 
the United State Congress and the budget process.
    In order to craft a responsible budget plan that addresses 
the needs of the United States, Congress must make the 
difficult but essential decisions about spending and 
challenging head on the fiscal threats we face. Our repeated 
failure to control federal spending and address our mounting 
debt truly is the greatest long-term danger to this nation.
    Congress should fulfill their constitutional duty to 
produce a budget resolution that puts our nation on a fiscally 
sustainable path. Sound fiscal footing fosters an environment 
for a strong economy, opportunities for growth and prosperity 
for all people. If we keep letting our debt spiral out of 
control we put our country at risk of a financial crisis. The 
federal government has an outstanding public debt of more than 
$28 trillion. Every year since 1997 Congress has failed to 
maintain a fiscally responsible budget, and instead has relied 
too much on raising the debt ceiling.
    Our current normal of not passing a balanced budget is 
irresponsible and poses a major national security threat. Both 
parties have failed to restore regular order in the budget and 
appropriations process and have become comfortable with passing 
irresponsible continuing resolutions and omnibus spending 
legislation.
    To address this issue I have introduced multiple pieces of 
legislation. First, the No Budget, No Pay Act. The No Budget, 
No Pay Act will prohibit Members of the House or Senate from 
receiving pay if their respective chamber does not pass a 
budget by April 15 of each year. You cannot continue to budget 
on this step by step process and create the certainty necessary 
for the federal agencies and the American people.
    The next bill, Inaction Has Consequences Act. The Inaction 
Has Consequences Act mandates that if Members don't complete 
appropriations bills by the end of the fiscal year, their pay 
is withheld. If Members of Congress cannot get their most basic 
responsibility of funding our government done, we all must be 
held accountable.
    Third, the Stay on Schedule Resolution. The Stay on 
Schedule Resolution changes congressional procedure to prohibit 
the House from taking a recess in August unless it has passed 
all 12 appropriations bills individually by July 31 of 2021. 
This resolution, in conjunction with my other legislation, the 
No Budget, No Pay Act and the Inaction Has Consequences Act, 
will put the proper accountability measures in place to ensure 
Congress gets its primary job done on time.
    It is time to finally pass these measures. They will hold 
Members accountable to a higher standard and help us complete 
the work that the people of the United States expect us to do.
    Chairman Yarmuth and Ranking Member Smith, thank you for 
allowing me the time to testify before you today and I look 
forward to working with you and the rest of the Committee to 
restore America's fiscal footing.
    [The prepared statement of Robert J. Wittman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you very much, Mr. Wittman.
    Does any Member have a question of Mr. Wittman?
    Mr. Smith. Mr. Chairman?
    Chairman Yarmuth. Yes, Ranking Member Smith.
    Mr. Smith. Yes, I have a quick question of the 
Representative.
    Chairman Yarmuth. Sure.
    Mr. Smith. Thank you.
    Representative, how does the dysfunction in the budget 
process impact the DOD and the DOD operations?
    Mr. Wittman. Well, Ranking Member Smith, it is completely 
disruptive to certainty in the national defense realm. As you 
know, we have long-term funding needs to do things like build 
aircraft, to build ships. And when the stream of funding is 
interrupted by continuing resolution, many of those efforts 
come to a halt or they are suspended temporarily, which 
actually results in a waste of money. In fact, I go back to a 
previous Secretary of the Navy's comment when he was asked at a 
House Armed Services Committee hearing what was the fiscal 
impact of continuing resolutions, and he said that from 2009 to 
2017 it resulted in the waste of $4 billion just for the United 
States Navy. He said that is not setting money aside, he said 
that is putting $4 billion into a trash can and burning it. 
That is the impact that it has on not only our nation's fiscal 
responsibilities in responsibly budgeting and making sure the 
money gets used in the right way and not wasted, but it also 
interrupts our efforts to modernize, our efforts to make sure 
we keep up with our adversaries. And in today's world we cannot 
afford either. We can't afford the wasting of those dollars and 
we can't afford the interruptions, making sure that we keep 
with our adversaries.
    Mr. Smith. Thank you, Representative.
    Chairman Yarmuth. I thank the Ranking Member. And I will 
just add to that that, you know, I think you get that partisan 
agreement on the trouble with continuing resolutions. I am not 
sure anyone wants to proceed on that basis. And many of us have 
significant amounts of research universities in our districts 
and the toll that CRs take on vital research is equally 
disruptive.
    So, anyway, I appreciate that question and your answer, Mr. 
Wittman.
    So are there any further questions or comments?
    Then this panel is excused. Thank you very much for your 
testimony.
    The panel No. 2 at this point is Representative Holmes 
Norton from the District of Columbia and Representative Graves 
of Louisiana.
    I now recognize and welcome to the Committee Representative 
Holmes Norton from the District of Columbia for five minutes.

STATEMENT OF HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS 
                 FROM THE DISTRICT OF COLUMBIA

    Ms. Holmes Norton. Thank you for this opportunity to 
testify today.
    I ask that you mark up my federal government Advertising 
Equity Accountable Act designated as H.R. 2576 in the 116th 
Congress, which would require all federal agencies to include 
in their annual budget requests to Congress the amount they 
spend on advertising contracts with small disadvantaged 
businesses and businesses owned by minorities and women. This 
bill would require federal agencies to provide prior and 
projected total expenditures for such contracts.
    The past two years working with Representative Barbara Lee 
we have been able to get reports accompanying the appropriation 
bills to direct agencies to provide this information in their 
budget requests. This bill, which had 13 co-sponsors last 
Congress, would make such reporting mandatory every year.
    In 2007 the Government Accountability Office examined 
spending on advertising contracts with minority owned 
businesses by five agencies, Department of Defense, the 
Treasury, Health and Human Services, Interior, and National 
Aeronautics and Space Administration, and found that only five 
percent of the $4.3 billion available for advertising contracts 
went to minority businesses.
    In April 2016 several Members of Congress joined a letter 
to the Government Accountability Office requesting information 
on the amount of federal advertising dollars spent on small 
disadvantaged businesses and businesses owned by minorities and 
women. In response to our request the Government Accountability 
Office released a report in July 2018 which showed that in 
fiscal 2017 only 16 percent of federal government's advertising 
contract obligations went to small, disadvantaged businesses 
and businesses owned by minorities and women.
    The federal government is the largest advertiser in the 
United States. The Government Accountability Office's findings 
make it clear that there is still much progress to be made. 
This bill would require the regular collection of information 
on federal advertising contracts with small disadvantaged 
businesses and businesses owned by women and minorities 
promoting transparency and encouraging federal agencies to 
strive to reach these constituencies.
    The regular collection of information on federal 
advertising contracts with small, disadvantaged businesses and 
those owned by women and minorities, along with the provision 
of this information to legislators and stakeholders is 
essential to bridging the divide between what government 
statistics show and a more inclusive advertising landscape. 
This bill would achieve these goals while also promoting 
transparency and encouraging federal agencies to strive to 
reach minorities who often receive their daily news from 
smaller media outlets that serve communities of color.
    The requirement that agencies submit prior and projected 
information regarding the amount of advertising dollars spent 
with small, disadvantaged businesses and those owned by 
minorities and women would allow federal agencies to evaluate 
their progress over time. The regular collection of this 
information would also demonstrate that the promotion of equity 
in advertising and in all areas of government should be a 
continuous effort that is important to the mission of every 
agency.
    I ask that you mark up this important bill and I thank you 
for your consideration, Mr. Chairman.
    [The prepared statement of Eleanor Holmes Norton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. All right. Thank you, Representative 
Holmes Norton.
    And are there any questions of Ms. Holmes Norton?
    Seeing none, I now welcome to the Committee and yield five 
minutes to Mr. Graves from Louisiana.

 STATEMENT OF HON. GARRET GRAVES, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Mr. Graves. Thank you, Mr. Chairman and Ranking Member 
Smith. I appreciate the opportunity to join you today.
    Mr. Chairman, first of all, I would like to associate 
myself with Congressman Wittman's comments. I think that his 
perspective is really important in regard to the stopping and 
going of government. In a previous life I worked for a large 
infrastructure program at the state level and one of the 
frustrations we often had was watching the spigot turn on and 
off. The inconsistency, the repetitive mobilization and 
demobilization for projects related to infrastructure was 
incredibly expensive and frustrating.
    So, Mr. Chairman, just big picture, I would like to make 
one suggestion as we move forward. Of course we are all aware 
of the rumors of the large infrastructure bill. The federal 
government needs to decide what its role is. Virtually every 
constituent that comes to us will ask for--that is seeking 
funding, we can find a different grant program or some type of 
assistance that is available at the federal level. And it 
really seems like that rather than being a reliable federal 
partner, the federal government has a program that effectively 
throws a nickel at every $10 problem across the country and we 
never get things done.
    And so I just ask as you all move forward that you think 
very carefully about what the role of the federal government 
is. What is our objective in ensuring that we are a consistent 
federal partner that is actually working to fulfill a mission 
and get projects completed rather than, as I said, a few 
minutes ago, throwing a nickel at every $10 problem across the 
country and never ever finishing these projects.
    So, Mr. Chairman, more importantly, I would like to turn a 
few bills that we have either introduced or are working on now.
    In 2005 the Office of Management and Budget established an 
administrative PAYGO, and certainly you are very familiar with 
the congressional PAYGO that requires that we offset spending 
whenever we introduce legislation. The administrative PAYGO is 
a little bit more murky in that compliance with it, how it 
applies to different administrative decisions is less clear.
    What we have seen is this very strict rule, often applied 
in the Congress, where once again, if we introduce legislation 
that spends dollars or affects income, we have got to find ways 
to offset it. At the federal level, just in the few years I 
have been in Congress, I have witnessed repeatedly where the 
administration has come in, they have taken discretionary 
executive actions, and they have caused extraordinary impacts 
in either spending or in reduced revenue coming to the federal 
government. And so effectively this administrative PAYGO 
concept designed to address budget neutrality at the 
administrative level, it is not working. And it seems like that 
rather than having a very strict process at the congressional 
level or in the legislature and then allowing the federal 
government at the administrative branch to make wild variations 
in income earned revenue, it is inappropriate. It is not the 
appropriate balance and I don't think it often reflects the 
checks and balances that our founders intended.
    So three pieces of legislation that we are working on. No. 
1, bipartisan legislation we have introduced called the Prove 
It Act. It has actually passed the House of Representatives 
twice and our great friends in the Senate have failed to see 
the wisdom associated with the legislation. But what it would 
do is, as you know, whatever regulations are proposed there is 
a cost associated with those regulations, and it is often a 
guesstimate. We don't ever come back and look at the accuracy 
of the estimate. What happens if someone estimated it was $5 
million in compliance but it ended up being $10 billion. That 
may deviate significantly from congressional intent and 
obviously the cost imposed on families and businesses is 
extraordinary. So the Prove It Act requires that we actually do 
a look back to determine the accuracy of these budget estimates 
and the regulatory impact estimates and, if appropriate, 
revisit the regulation if it is way out of whack.
    No. 2, this bill we haven't introduced yet, but working on 
legislation that would require that Congress effectively assign 
a regulatory budget to legislation, therefore helping to 
preserve congressional intent on legislation as we pass it. So 
if we pass legislation, we direct the administration to do 
something, we would establish a regulatory budget with that 
legislation--let me say it again--therefore ensuring 
congressional intent and don't allow the administrations to 
wildly vary interpretations or application of the law.
    And the last one is actually applying a regulatory budget 
across agencies, similar to what we do with appropriations to 
help contain or, once again, preserve congressional intent in 
regards to the discretionary actions of the administration.
    So I urge your consideration of these ideas and yield back.
    [The prepared statement of Garret Graves follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you, Mr. Graves, for your 
testimony.
    Does any Member have a question of Mr. Graves?
    Seeing none, those are the two Members of our second panel, 
so you are excused and thank you all for your testimony.
    The third panel will include Representative Moore of 
Wisconsin, Representative Kilmer of Washington, and 
Representative Timmons of South Carolina.
    So, Ms. Moore, you are recognized for five minutes. Welcome 
to the Committee. I don't know if she is there. Representative 
Moore, are you there? Well, we will come back to her.
    And I now recognize Mr. Kilmer of Washington for five 
minutes. Welcome to the Committee.

 STATEMENT OF HON. DEREK KILMER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Kilmer. Thank you, Mr. Chair.
    Chairman Yarmuth and Ranking Member Smith, thank you for 
hosting today's Members' Day Hearing and for your leadership.
    I appreciate the opportunity to talk with you about two 
subjects. First, some bipartisan recommendations for improving 
the budget process that were unanimously approved by the Select 
Committee on the Modernization of Congress.
    The Select Committee's guiding principle is to make 
Congress work better so it can better serve the American 
people. And during the 116th Congress Members of the Select 
Committee worked with you, Mr. Chair, and with Ranking Member 
Womack and the Budget Committee staff to identify a set of 
bipartisan recommendations focused on modernizing the budget 
process. And I now Vice Chair Timmons will speak to some of 
that as well.
    In doing so we relied extensively on the work of the Joint 
Select Committee on Budget and Appropriations Process Reform, 
on which I have served on aside Chair Yarmuth and Ranking 
Member Womack. The Joint Committee's draft legislation formed 
the foundation for the recommendations Vice Chair Timmons and I 
will share with you today. We understood that process reforms 
alone can't force Congress to reach budget deals, but process 
matters because it determines how we enact policy. A strong 
bipartisan process can generate Member buy-in, and that is 
enormously important when it comes to reaching a deal.
    As a first step the Select Committee recommended requiring 
an annual fiscal State of the Nation. A yearly fiscal State of 
the Nation discussion will help facilitate budget negotiations 
by establishing a common fact base based on non-partisan 
information.
    We also recommended enhancing the budget submission process 
from the executive branch. Congress requires critical data from 
the executive branch to begin the budget building process. The 
Congressional Budget Office cannot begin constructing its base 
line for the upcoming Fiscal Year without data that is normally 
transmitted with the president's budget request. And without 
the CBO's baseline Congress generally cannot begin writing its 
budget resolution.
    To create additional time for developing the baseline, and 
therefore the budget resolution and various appropriations 
bills, we recommended that the executive branch be required to 
provide a supplemental budget submission that is separate from 
the president's policy proposals no later than December 1 of 
each calendar year. That simple requirement would allow CBO to 
begin constructing the baseline and subsequently enable the 
Budget and Appropriations Committees to begin preliminary work 
in writing the budget resolution and appropriations bills 
earlier in the process.
    The Select Committee also agreed with the Joint Committee's 
assessment that including information about tax expenditures 
would encourage transparency and bring needed flexibility to 
the budget process.
    I know Vice Chair Timmons will cover some additional 
terrain from the committee's recommendations. In sharing some 
of the Select Committee's recommendations with you today, Vice 
Chair Timmons and I hope we can work with the Budget Committee 
on bipartisan reforms to modernize the process, to eliminate 
delays and dysfunction that don't serve the interest of the 
American people.
    On behalf of the Select Committee I would appreciate your 
consideration and am happy to provide additional information to 
support your work. Outside the work of the Select Committee I 
would also like to just take a minute and a half and highlight 
a topic that is also worthy of this Committee's consideration.
    Many of you, like me, represent communities that were 
hurting well before any of us had heard of COVID-19. In fact, I 
grew up on the Olympic Peninsula of Washington State and was in 
high school when the timber industry took it on the chin. The 
economic change and the economic distress that we have 
experienced is not unique to my region. Indeed, too many 
communities are being left behind, with distressed labor 
markets, insufficient job opportunities, and the real fear that 
our top export will be young people.
    In examining these challenges, I have identified three 
problems that should shape our response. First, communities 
that are struggling simply do not have the capacity to navigate 
the complex systems of grants and loans that exist across a 
multitude of federal agencies. Many can't afford grant writers.
    Second, while one year grants are helpful, it is worth 
recognizing that the struggles facing these communities didn't 
arise in one year. While one year of support is helpful, 
research tells us that a sustained approach is needed.
    And, finally, it is important to acknowledge that different 
communities have different problems. So a one-size-fits-all 
approach won't work. In my district alone there are some 
distressed communities for whom the primary issue is the need 
for work force. One community needs help with brownfield 
redevelopment, another with greenfield site development. One 
community needs broadband and another needs funding to address 
persistent flooding.
    To address this, I am working on a proposal for flexible 
long-term grant assistance to persistently distressed 
communities. When we work on a recovery package or an 
infrastructure package in the weeks and months ahead, it is 
important that it doesn't simply amplify existing inequities 
between communities that have enjoyed tremendous economic 
growth and others that are being left behind. Rather, we need 
to make sure that people have economic opportunity, regardless 
of what zip code they live in.
    I have provided a two-pager along with my testimony and 
would invite your Committee's partnership on this effort.
    So thank you again for your leadership and for the 
opportunity to speak before the Committee today.
    And I yield back.
    [The prepared statement of Derek Kilmer and article 
submitted for the record follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Yarmuth. Thank you, Mr. Kilmer.
    Does anyone have a question for Mr. Kilmer.
    Ms. Plaskett. Yes, I do, Mr. Chair.
    Thank you so much, Mr. Kilmer, for your testimony. And I 
find that really very interesting and dynamic, the notion of 
supporting distressed communities and those that have been left 
behind.
    In your two-pager, which I am really anxious to read, do 
you lay out how that determination is made as to what those 
communities would look like? This is in some ways reminiscent 
to me of our Whip Clyburn's 30-20-10 program, where he is 
trying to identify communities that have 30 years poverty--20--
you know--well, you know poverty--in communities that have been 
in poverty levels for protracted periods of time. Are you tying 
it to anything specifically?
    Mr. Kilmer. Yes, thank you for the question.
    We have been working with an economist named Tim Bardik, 
who has done some pretty detailed work on distressed 
communities. And we have also been getting technical assistance 
from EDA. So that if an idea like this moved forward, it would 
be done in a way that got assistance to the communities that 
need it most.
    But certainly appreciate the question.
    Ms. Plaskett. Thank you.
    Chairman Yarmuth. Any other Member have a question for Mr. 
Kilmer?
    Seeing none, I now recognize the gentleman from South 
Carolina, Mr. Timmons, for five minutes. Welcome to the 
Committee.

 STATEMENT OF HON. WILLIAM R. TIMMONS, IV, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Timmons. Mr. Chairman, thank you for having me, Ranking 
Member Smith, thank you both for your leadership on this 
Committee and for holding today's Members' Day Hearing to 
listen to the concerns and priorities of Members of Congress.
    I appreciate the opportunity to discuss some of the budget 
recommendations made by the Select Committee on the 
modernization of Congress.
    The Select Committee made over 90 recommendations to the 
House last year, including recommendations involving the budget 
process and how we think it can be improved. These were all 
unanimous.
    Our Founding Fathers separated the powers given to each 
branch of government. Congress was given the power of the purse 
and controlled our nation's entire annual budget and funding 
process for years. However, the creation of an initial budget 
was eventually moved from Congress to the executive branch, and 
this is the system we still use today. However, the budget 
process today rarely follows the system initially established. 
As noted in our Committee's final report for the 116th 
Congress, it is more like regular disorder.
    One of the more radical changes from congressional 
procedure is the lack of regular order in our budget and 
appropriations process. Instead, Congress and the President 
tend to rely on omnibus legislation and continuing resolutions, 
as we have all seen in past years. Congress has failed and is 
failing to meet its Article I duties. And one of the clearest 
examples we have is the worsening of the budget and 
appropriations process.
    One of the recommendations made by the Select Committee is 
to require a biannual budget resolution while maintaining the 
annual appropriations bills. Unfortunately, over the last 
several years the budget resolution has become more and more a 
partisan issue, used by both sides of the aisle to emphasis 
their own policy preferences, and in some cases, a political 
mover for Senate passage of non-budget related bills.
    To be clear, both sides are guilty of this. When the budget 
process is intentionally delayed and used for political 
purposes, it delays the incredibly important and 
constitutionally mandated responsibilities of Congress. If we 
were to require a biannual budget resolution while maintaining 
annual appropriations bills, the process would be more 
efficient and we would be able to plan ahead, avoiding 
unnecessary delays.
    A biannual budget resolution would also give Congress ample 
time to conduct oversight on federal agencies and departments. 
When both appropriators and authorizers have more certainty, 
they are able to give more attention to those bodies they fund 
and oversee. This allows Congress to better ensure that 
appropriated funds, taxpayer dollars, are being used 
responsibly and that authorized programs are carried out in 
line with congressional intent.
    In line with requiring a biannual budget resolution, a 
realistic deadline for Congress to complete action on a 
biannual budget is also needed. Congress has consistently 
failed to adopt a budget resolution by the deadline and statute 
of April 15. As you know, we will once again fail to meet this 
deadline this year. The current deadline does not reflect a 
realistic timeline and only further delays the budget process. 
A later deadline for the first year of the biennium would give 
Congress sufficient time and opportunities to finish its work.
    Simply requiring a biannual budget resolution does not 
immediately fix the problems that we face in Congress, but it 
is a step in the right direction. But in order to maximize 
taxpayer dollars and ensure the congressional intent is 
implemented, the Budget and Appropriations Committees should 
adopt biannual budget resolutions going forward.
    A two year budget would also allow us to take a good look 
at our spending and our budget cuts. With our national debt 
quickly reaching $30 trillion, a biannual budget provides the 
opportunity to correct course and become good stewards of 
taxpayer dollars rather than rely on 11th hour continuing 
resolutions or bloated omnibus bills that only further 
exacerbate the problems at hand.
    As a former member of the Budget Committee I understand the 
unique challenges of the work its Members do, and I believe a 
biannual budget would help us overcome some of the challenges 
facing us today.
    The congressional budget appropriations process, as it 
stands today, is in desperate need of reform. Delays and, 
worse, inaction have become the norm. The unfortunate results 
are not just ineffectiveness and lack of accountability of 
Congress, they are increased delays throughout Congress as a 
whole and strained relationships with the executive branch. 
Vital legislation is forced to the sidelines as we hurriedly 
try to fund the government through omnibus bills and CRs. And 
without on-time individual appropriates bills, federal programs 
and agencies are hamstrung by the uncertainty of future 
funding.
    One of Congress' core responsibilities outlined in Article 
I of the Constitution is allocating funds for the federal 
government and it is not currently meeting that key 
responsibility.
    By adopting these recommendations that both Chair Kilmer 
and I have spoken about, we can begin to remove the roadblocks 
that have only further delayed and polarizations in this body.
    Thank you again for the opportunity to testify before you 
today. I hope that moving forward the Select Committee can be a 
resource to you and I look forward to working with you this 
Congress to help reform our budget process and make Congress 
work more efficiently.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of William R. Timmons, IV follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you, Mr. Timmons.
    Does anyone have a questions of Mr. Timmons?
    Seeing none, I now recognize the gentlewoman from 
Wisconsin, Ms. Moore, for five minutes. Welcome to the 
Committee.

STATEMENT OF HON. GWEN MOORE, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF WISCONSIN

    Ms. Moore. Thank you so much, Mr. Chairman, and thank you 
Ranking Member. Thank you to all the Members of the Budget 
Committee.
    I am so grateful for the opportunity to come before this 
Committee. You know, I served on the Budget Committee for over 
10 years and I know how hard every Member in both parties works 
to put this budget together, no matter where they land on the 
policy imperatives.
    You know, I have so much to talk about, but I have been 
chastened by the five minute rule, so I want to focus my 
remarks on how provisions of the American Rescue Plan can 
become foundational for reforming our public assistance 
programs going forward by making the provisions adopted in the 
American Rescue Plan relating to the child tax credit, making 
it permanent, and to continuing to expand access to the earned 
income tax credit.
    I have a proposal that you will hear more about in the 
future, called the Worker Act, which recognizes the work of the 
unpaid work of caretakers--expanding childcare, the Affordable 
Care Act, and SNAP. To those workers, who are described by the 
poor people's campaign as low wealth persons, we cannot only 
end welfare as we know it, but we can end the misery inflicted 
by poverty on our communities going forward.
    You know, I don't need to remind anyone here that according 
to analysts, the earned income tax credit and the child tax 
credit provisions, among others in the Rescue Plan, will do 
more to reduce child poverty in our country than all the empty 
rhetoric for the last 25 years about personal responsibility 
since we ended welfare as we know it. And we need to continue 
to promote these proven poverty alleviation efforts like the 
CTC, the EITC.
    In 2018 the CTC pulled 4.3 million Americans, including 2.3 
million children, out of poverty. And if you are concerned 
about cutting poverty, oh, this is a great place to start. 
Children and families who receive the CTC had improved overall 
health, performed better in school, earned higher salaries as 
adults. And this next budget should consider and build on the 
progress that we have made.
    You know, Mr. Chairman, Mr. Ranking Member, five minutes is 
just not long enough to revisit the 25 years since we ended it 
all. You know, and I was a state Senator in 1996 when then-
Governor of Wisconsin Tommy G. Thompson, President Bill 
Clinton, Speaker Newt Gingrich, and luminaries on both side of 
the aisle breached the social contract of the Social Security 
Act to protect the elderly, the infirmed, the disabled, and 
children by snatching this protection singularly from children 
and relegating children's economic security to the vagaries of 
the marketplace. And as Governor Thompson, soon to be Secretary 
of Health and Human Services under President George W. Bush's 
compassionate conservatism, so aptly observed at the time, 
plenty of jobs, of low-wage jobs were available to women 
because of this government mandated market manipulation.
    And over the past 25 years, United States employers have 
enjoyed a reliable pool of workers, captured in a system that 
paid minimum wages, or more often, the tip wage of $2.13 an 
hour, often less than 40 hours. And because TANF severely 
limited education and training and childcare to focus on 
workfare and these low-wage insecure jobs, and it severed the 
automatic entitled to Medicaid and SNAP, there was no escape 
from this government mandated feminization of poverty.
    We were regaled with promises of lifting people out of 
poverty, of ending dependency, of restoring women's dignity by 
tying benefits to work requirements, drug testing, and time 
limits. Governor Scott Walker, Rep. Paul Ryan admonished us to 
accept the TANF program as a system that would provide a 
trampoline on poverty rather than welfare serving as a hammock.
    And I hope my colleague Glenn Grothman is there, ever so 
romantic, that he defended this policy as pro-family and pro-
marriage. Not surprisingly, the welfare rolls precipitously 
dropped due to rules requiring strict worker engagement rules 
and financial incentives to the States to get families off no 
matter what.
    Five minutes is not enough time to review all of the 
literature on TANF after 25 years, however, briefly, according 
to CBPP's longitudinal study, deep poverty, defined as living 
on roughly $8.50 a day, has surged. And according to research 
by Luke Shaefer and Kathryn Edin, households living in extreme 
poverty, defined as living on $2.00 a day, has doubled.
    My message is that we should keep on doing what we did on 
then the ARP, to begin a new conversation about addressing how 
we help the poorest truly escape poverty. I think it is time 
that we begin to discuss a new deal between the federal 
government and its people as distinct from a contract on 
America that exacerbates inequities.
    We need a minimum wage increase. We have got to stop 
pretending that we can just live off of nothing. You know, we 
have got to--instead of us providing the poor with 
opportunities for upward mobility, we rely on insulting people 
out of poverty. If we just call them lazy, ne'er-do-well 
welfare queens, if we demand that they get some dignity with 
that $2.13 an hour, plus tips, job and promise them that this 
would put them on a path to self-sufficiency, we would do OK. 
The awful truth in America is many hardworking Americans do 
not--got more month than money. And it is the government's 
responsibility to do it.
    I just want to end, because I know that the Chair is 
indulging me. The reality is that people of all races, genders, 
and walks of life, have needed and benefited from time to time 
from a little help, and the government has provided stability 
and to help people keep afloat when life gets tough.
    We need to reclaim our time when it comes to the debate on 
poverty and welfare and the work of this Committee will help us 
do that.
    And I yield back.
    [The prepared statement of Gwen Moore follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you, Ms. Moore.
    Any questions of Ms. Moore.
    Seeing none, thank you to this panel. You are excused. And 
we have reached--oh, Mr. Kilmer, you are waving goodbye. Thank 
you.
    Mr. Kilmer. Take care.
    Chairman Yarmuth. Thank you very much.
    Our next panel at this point is Mr. Case of Hawaii and Mrs. 
Boebert of Colorado.
    So I now welcome to the Committee and yield five minutes to 
Mr. Case of Hawaii.

 STATEMENT OF HON. ED CASE, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF HAWAII

    Mr. Case. Good morning, Mr. Chair, Ranking Member, and 
colleagues from an early Hawaii, and mahalo, for the 
opportunity to testify before you today, as a former Member of 
this Committee, in support of a fiscally responsible budget.
    At the outset, let me say very clearly that I reject the 
increasingly popular view that federal deficits and debt no 
longer matter, that we can somehow continue to endlessly spend 
far more than our revenues, endlessly increase our national 
debt, with no consequence. Our debt now exceeds $28 trillion, 
doubling in just the last decade alone. Our debt to GDP ratio, 
measuring the ability of our economy to sustain that debt, is 
at its second highest level ever, exceeded only by World War 
II. Our own non-partisan Congressional Budget Office, in its 
recent Budget and Economic Outlook 2021-2031, published before 
the passage of the $1.9 trillion American Rescue Plan, projects 
that in just another decade debt will equal 107 percent of GDP, 
the highest in our history. And within another two decades, 
almost 200 percent of GDP.
    Even with record low interest rates, gross interest outlays 
increased 26 percent over the past decade and we are spending 
more on interest than key investments in our future, such as 
transportation infrastructure and K-12 education.
    We can and should debate reasonable deficit and debt 
levels, and whether to address the on the revenue or the 
expense side. Those are debates that need to be had. But I hope 
we can all at least agree that the current escalation in our 
federal debt is unsustainable over time and will increasingly 
harm our country across the board.
    I think the underlying challenge is our collective 
inability, or unwillingness, to recognize and prioritize fiscal 
responsibility and sustainability. Whether budgets, taxes, 
spending, PAYGO, or any other fiscal issue, we are increasingly 
simply avoiding sound budgetary principles and practices and 
accelerating the decline in our nation's finances. More 
directly, several of our nation's critical trust funds, 
including the Medicare Hospital Insurance Trust Fund, the 
Social Security Disability Insurance and Social Security Old 
Age and Survivor's Insurance are now projected to run out of 
money within the next decade plus, much sooner than earlier 
projected as a result of the COVID-19 crisis.
    Against this backdrop it is simply irresponsible to ignore 
our nation's fiscal state and even more critical that our 
budget face up to these realities. We do not have to implement 
immediate draconian and counterproductive spending cuts and/or 
tax increases to do so. We can take balanced, preferably 
bipartisan steps to re-institute fiscal responsibility and 
accountability, as long as we do so now.
    I want to highlight some basic budgetary reforms that I 
believe can contribute.
    First, and most basically, I believe we must produce a 
detailed budget. It is a mark of deterioration over time, in 
both finances and accountability, that we must even debate this 
most basic step.
    Second, we must pursue efforts to responsibly utilize 
limited taxpayer resources. Unfortunately, terms such as ``root 
out waste, fraud, and abuse'' and ``eliminate duplicative 
programs'' have become proxies for political ping pong. But the 
desire to spend wisely should be, and I believe is, universal. 
As one step last Congress, we enacted the Taxpayers Right-to-
Know Act, authored by Committee Member Jim Cooper, to require 
federal agencies to report fully on their federal program 
activities and publish that information online for direct 
public accountability. Further steps include strengthening the 
federal inspectors general offices, which were denigrated under 
the previous administration.
    Third, we should establish balanced, bipartisan procedures 
that require us to evaluate and make the hard decisions 
necessary for true fiscal responsibility and sustainability.
    I have again co-introduced the Sustainable Budget Act to do 
so for our overall fiscal state and will soon reintroduce the 
Trust Act, which focuses on the specific actions necessary to 
save our trust fund programs.
    Last, while we pursue these initiatives, we must avoid 
digging ourselves any deeper than absolutely compelled by 
crisis circumstances through abiding by our PAYGO rules and 
statutes.
    Paying for progress is not stopping progress. We have time 
and again proven that progress and fiscal responsibility are 
not mutually exclusive, as demonstrated most tellingly by the 
paid for Affordable Care Act. And we have proven that we can 
take the difficult decisions on spending constraints and 
revenue enhancements necessary to do so and successfully 
explain to our public why those decisions are necessary.
    I urge this Committee to lead our way back to responsible 
budgeting and sustainable budgets.
    Thank you very much for your consideration.
    [The prepared statement of Ed Case follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you, Mr. Case, for your testimony.
    Does any Member have a question of Mr. Case? Ranking 
Member?
    Mr. Smith. Just mainly a comment for Mr. Case.
    Would love for you to serve on the Budget Committee. So we 
definitely could use your voice, look at the deficits and 
items. So hopefully you get back here someday.
    Mr. Case. Thank you very much for that comment. I am busy 
on appropriations, but it is critical all across the board, 
Ranking Member. This should not be a partisan issue. I think we 
can all find a way to debate this and reach reasoned decisions. 
Tough decisions, but reasoned decisions in a way that will 
place our budget back on a sustainable path.
    Mr. Smith. Thank you, sir.
    Chairman Yarmuth. Thank you.
    Any other Member wish to ask a question?
    Seeing none, I now recognize the gentlewoman from Colorado, 
Mrs. Boebert. And I think I can speak on behalf of the entire 
Committee in sending our condolences to you for the tragedy in 
your state.
    You are now recognized for five minutes. Welcome to the 
Committee. You are a member of the Committee, but welcome as a 
witness.

STATEMENT OF HON. LAUREN BOEBERT, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mrs. Boebert. Thank you. Thank you, Mr. Chairman, and thank 
you so much for your condolences. It has certainly been a rough 
past few hours for Colorado beginning yesterday, and so I do 
appreciate that greatly.
    Mr. Chairman, we need a real budget that puts the U.S. on a 
path to fiscal solvency. Democrats are not serious about the 
fiscal health of the country. Democrats waited until we were 
nearly halfway through the Fiscal Year before they even brought 
forth an Fiscal Year `21 budget. We know this was a sham 
process and only meant to cram $1.9 trillion in new spending 
down the American people's throats. My children are affected 
through this.
    As if once wasn't enough, they are back at it again, this 
time it may be a lot worse. Mr. Chairman, and my colleagues on 
this Committee, the federal deficits are on track to exceed $3 
trillion this year and the national debt will reach a new 
record. The non-partisan Committee for a Responsible Federal 
Budget estimates debt will now total 108 percent of GDP this 
year, which will surpass the prior record of 106 percent set 
just after World War II, and it will rise to 113 percent of GDP 
over the next 10 years--that is by 2031--irrespective of any 
potential economic feedback effects of the stimulus bills.
    CBO had previously projected that debt would grow by $14.3 
trillion from $21 trillion at the end of 2020 to $35.3 trillion 
at the end of 2031. With the Democrats' $1.9 trillion so-called 
COVID relief, debt is projected to increase by $16.3 trillion 
over that same period, rising to $37.4 trillion by the end of 
2031.
    The Biden Administration has talked about raising taxes in 
order to pay for all of this extra spending.
    Mr. Chairman, I submit we do not have a revenue problem, we 
have a spending problem. You can't tax your way out of it. I 
urge my colleagues to take the Fiscal Year `22 budget and take 
this as an opportunity to show some restraint and fiscal 
sanity. That means we need an actual budget process that 
foresees the prioritization of limited resources. That is what 
leadership is all about.
    Mr. Chairman, I represent the people of Colorado's Third 
District, which covers 52,000 square miles, 47 percent of the 
state, and is the second largest congressional district that is 
a non-at large state, and 55 percent of the Third District is 
public land. So the decision that the Biden Administration made 
to shut down oil and natural gas development on public land is 
a very big deal to us. Every decision about public land 
management and development is a big deal to us and other 
districts where most of the public land in our country is 
located.
    Mr. Chairman, that is why it is so important that the 
Bureau of Land Management headquarters stays in Grand Junction, 
Colorado. Grand Junction was selected for the headquarters 
location because of its substantial cost savings, travel 
accessibility, quality of life attributes, and increased 
representation among the communities affected by land 
management decisions. It makes economic sense and has already 
saved money. The Department of the Interior estimates that in 
2021 the move will save more than $2 million in lease costs and 
$1.9 million in salary savings.
    Additionally, the agency reported a $1.9 million in savings 
on travel costs in 2020. And it makes the most sense that the 
decisions are made closest to the people the land most directly 
impacted. Since 99 percent of the lands that the Bureau manages 
are west of the Mississippi, it only makes sense to have an 
agency located close to those communities that it serves out 
West.
    Keeping the BLM headquarters out west is one example of a 
decision that we can make to save taxpayer money and benefit 
those most directly impacted by the land management decisions.
    Mr. Chairman, as we contemplate the Fiscal Year 2022 budget 
process, I urge you to take this opportunity to put the country 
on a path to fiscal solvency and make wise decisions.
    Thank you very much, Mr. Chairman, Ranking Member Jason 
Smith.
    I yield back.
    [The prepared statement of Lauren Boebert follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you, Mrs. Boebert.
    Does any Member have a question or comment about Mrs. 
Boebert?
    Seeing none, thank you to Mr. Case and Mrs. Boebert. You 
are excused.
    On the hearing we have one final panel and that includes 
Mr. Larson of Connecticut and Ms. Jackson Lee of Texas.
    So, Mr. Larson, welcome to the Committee and you now have 
five minutes for your testimony.

STATEMENT OF HON. JOHN B. LARSON, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF CONNECTICUT

    Mr. Larson. Well, thank you, Chairman Yarmuth and Ranking 
Member Smith.
    It is an honor to be here. And I am here to discuss--and I 
see that the Committee is blessed to have six of my colleagues 
from the Ways and Means Committee who serve on the Budget 
Committee as well, and they are very much aware and apprised of 
the issue I am addressing today.
    I am proud that we have a president who has recognized the 
truth about Social Security and retirement. Social Security is 
a sacred trust between government and the people. And this 
Congress--not the 116th, but it is part of Congress--Congress 
has not taken any action with respect to Social Security since 
1983. Thirty-eight years have transpired and the gap, the 
disparity gap that exists between people who live and rely on 
Social Security. And for many Americans, 40 percent of all 
retired seniors, Social Security is their only source of 
income, and yet we see the great success of the program because 
Social Security, as you all know, is the nation's No. 1 anti-
poverty program for seniors. It is also the No. 1 anti-poverty 
program for children as well.
    Roosevelt's genius was recognizing this and both Democrats 
and Republicans over the years have come to share this. In 
fact, it was Bob Dole that led the charge in 1983 in the U.S. 
Senate to make sure that we were reforming Social Security in a 
way that is going to be there for future generations.
    But let us make it clear too, the debate in Congress more 
often than not gets politicized and gets away from the facts. 
The fact of the matter is that Social Security is not an 
entitlement, it is a earned benefit, something that people have 
paid for. How does every American know this? Because all they 
have to do is go to their paycheck and look at where it says 
FICA. That is not an entitlement, that stands for Federal 
Insurance Contribution. Whose? Theirs and yours. And people 
make that weekly, biweekly, monthly, however their payroll 
check divides. And those companies who also participate, of 
course as you know, get a tax write off.
    Here is what is staring us in the face. Where we stand 
right now is that there are 10,000 baby boomers a day who 
become eligible for Social Security. That is 10,000 a day. 
Congress has last taken action as I said in 1983. We are long 
overdue to make this program sustainable for our people, 
sustainable in a way that it continues to both help them 
personally and their local economy. And we don't often look at 
Social Security as an economic stimulus, but we should.
    Mr. Chairman, in your district you have approximately 
150,000 Social Security recipients who receive $207 million 
monthly that come into your district. Mr. Smith, Ranking Member 
Smith, you have 189,000 Social Security recipients in your 
district and $230 million. Where does that money go when it 
comes into a district? You all know it as well as I, it is 
spent locally within your district at the grocery store, at the 
pharmacy, at the dry cleaners. And I could on and on and on, 
but you get it and understand this.
    Congress is long overdue to step up to its financial 
responsibility to the citizens we are sworn to serve and to 
make sure, as President Biden says, that we honor the sacred 
trust that exists between the people who have paid into a 
system anticipating that they will receive a benefit. And it 
would break your heart to know that there are five million 
Americans who have contributed all their lives into a program 
and yet get a below poverty level check from the U.S. 
Government. Clearly, in the wealthiest nation in the world we 
have the ability--and it is--the ability relies on Congress 
taking action. So the responsibility is ours. And either we are 
going to step up and take the initiative or take the mirror 
test, look in the mirror and be honest with your constituents 
and say, no, we didn't take any action, that is why your 
benefits have decreased, have remained the same, and haven't 
kept pace with what we need to do.
    We have got a proposal. We are working directly with the 
President as well, but we would love to see this bipartisan. 
Over 208 Democrats have signed onto Social Security 2100 to not 
only make sure that nobody can retire into poverty who has 
worked all their lives and paid into a system but also make 
sure that we actually, as the AARP has recommended, have a 
system that keeps pace with inflation, something they would 
call CPI-E--the ``E'' standing for elderly in this instance. 
But making sure that the moneys that they receive are keeping 
pace with the cost of living, again noting that Congress hasn't 
taken any action in 38 years.
    So we are overdue for that action. We also know that people 
are working beyond age 65 and some into their 70's out of 
necessity. We shouldn't be taxing their Social Security at that 
point as well. And so the proposal provides that more than 12 
million Americans will receive tax breaks as well.
    And in many states, people are penalized because of WEP and 
GPO and have paid into a system or spouses have and yet they 
don't get the money back as well. All of this----
    Chairman Yarmuth. The gentleman should wrap-up please. You 
are way over your time.
    Mr. Larson. I am sorry.
    All of this--forgive me. But thank you for the opportunity, 
Mr. Chairman, to talk about Social Security, something I know 
all of you know and appreciate. And look forward to working 
with you on this and happy to take any questions.
    [The prepared statement of John B. Larson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you, Mr. Larson.
    Yes, Mr. Donalds has a question.
    Mr. Donalds. Thank you, Mr. Chairman.
    Mr. Larson, thanks so much for bringing up an issue that I 
think actually does need to be discussed in great detail by 
Congress. I actually agree with you. For the Members--and I am 
not going to get an extended remarks before I ask my question--
but in my professional career I actually spent a lot of time 
working with retirees on Social Security and the different 
dynamics, how it impacts their retirement, how it impacts their 
savings, how it also deals with their retirement accounts, to 
essentially try to keep them from actually having to go back to 
work later in life so that they have the necessary dollars they 
need to survive and pay for healthcare and pay for living and 
just enjoy their retirement years.
    My question is simple, Mr. Larson. I was listening to what 
you were saying intently, what are the actual elements of your 
plan, or the President's proposal. I didn't really pick that 
up. I just really wanted to know what the elements of that are.
    Mr. Larson. Well, the elements are--and I think you 
especially will appreciate this, looking at your district 
having more than 233,000 Social Security recipients and the 
district receiving $368 million in monthly payments.
    So what the bill is designed to do is to take Social 
Security, first, and make it sustainably solvent. Second, to 
make sure that nobody who has worked all their lives and paid 
into a system can retire into poverty. So the new floor for 
Social Security will become 125 percent of what the poverty 
level is.
    For people who continue to work and have paid into the 
system, and I am sure in your case that is many in Florida, 
they wouldn't be taxed on their Social Security benefits as 
they are working, unless they are above a certain pay grade, et 
cetera. And also that we want to make sure that this program is 
sustainably solvent.
    Primarily because millennials--and I think this is equally 
as shocking--for most of them, they have not had the 
opportunity for personalized savings. On the Ways and Means 
Committee we are trying to do both with the Secures Act and 
enhancing opportunity for people to put money aside, but also 
make sure that what we are asking people to contribute to is 
sustainably solvent and actually works for them back in their 
district. We haven't done that and so the gap continues to grow 
because of Congress' negligence. There is no one to blame other 
than Congress. And the fight usually stems around well, are we 
going to raise taxes or cut benefits. And that is a false fight 
too. What we have to do is take a look at the need that people 
have and then make the adjustments accordingly, whether that 
is, you know, lifting the cap, whether there is a whole host of 
ways that this could be addressed. And we would appreciate the 
input from Members of the Budget Committee on that as well.
    Chairman Yarmuth. Thank you. Oh, yes, sir?
    Mr. Donalds. I have a quick followup on that.
    Chairman Yarmuth. Sure.
    Mr. Donalds. I do understand the argument about raising the 
floor to 125 percent of the poverty line. I guess my question 
is where does the funding come from to do that? I think 
everybody on the call is quite aware of the issues we are 
having with the fact that there are less Americans per--there 
are less working Americans per retiree on Social Security, and 
also on Medicare for that matter. It has been decreasing for 
the last 60 years in the United States, without question. Also 
combined with the fact that the truth of the matter is because 
of the wonders of our healthcare system in the United States 
that Americans are living significantly longer than when Social 
Security was created. Life expectancy since 1983 has increased 
by five years.
    So my question is what is the actual mechanism that you are 
proposing we use in order to raise that floor?
    Mr. Larson. The exact mechanism that we currently use, the 
deductions are made. And so (a) you have a couple of choices 
here. You know, of course, as I am sure everybody on the 
Committee does, that you stop paying into Social Security, it 
is not deducted from your payroll after $139,000. So a person 
paying $50,000 proportionately pays far more than a person 
making $400,000. Lifting the cap, especially starting with 
higher income people and having them continue to pay into the 
system the same way that someone making $50,000 in Florida 
does, is a good starting place.
    And then I think, again because of the economic times that 
we are in currently, difficult as they are, talk about phasing 
in an increase so that the increase matches the benefit. So 
even if people were to increase a program one percent, but that 
doesn't kick in until 10 or 15 years out in the future, kind of 
what they did back in 1983. We have yet still--we are going to 
experience another cut in Social Security as the age goes up 
again in 2022. Congress did that in 1983. It is up to this 
Congress to decide whether or not it is going to face up and 
say, OK, this is how we want to approach this. Again, to your 
point, giving diminished amounts in the work force, but not 
diminished amounts in the economy, and what the economy 
produces and what it generates in terms of prosperity, except 
that has become increasingly more one-sided and leaving behind 
all these people who worked all of their lives, especially in 
professions that weren't paying the kind of salaries that I 
would dare say most of the Members of Congress make.
    Mr. Donalds. Mr. Chairman, if you would indulge me one last 
question on this matter.
    Chairman Yarmuth. Go right ahead.
    Mr. Donalds. Thank you, Mr. Chairman. I appreciate that.
    So from what I am gleaning, one of the proposed--the 
primary proposed fix is to remove the $139,000 cap on Social 
Security taxes. So if you have an American who is making 
$145,000 and how that the cap has been removed, are they going 
to get frankly the increased incremental benefit when they 
retire, simply because now the cap has been removed from the--
on their earnings?
    Mr. Larson. The proposal would actually to be--would be to 
lift money on people above $400,000. The cap currently exists 
at 139. You could lift that cap as well. That would be a way to 
pay for it, but under the proposal it is to lift the cap on 
people earning over $400,000.
    And, yes, would they receive more of a benefit--yes. 
Slightly more of a benefit because that is the way that the 
program is designed. But I think many, especially in that 
category, would argue that they probably don't need all that 
benefit, but nonetheless, that was the principle behind Social 
Security as well that Roosevelt instituted.
    So the bill does not currently include lifting the cap on 
people making $139,000, but it does include lifting the cap on 
$400,000, people earning above $400,000. But any input or ideas 
that you have with respect to that as a way for us to make sure 
that people in your district and everyone's district are 
getting what they deserve.
    Mr. Donalds. I am good, Mr. Chairman. Thank you for your 
indulgence.
    Chairman Yarmuth. Absolutely. Thank you for your questions.
    I would just add to that another argument for significant 
immigration reform is that it would bolster the finances and 
security of Social Security because we would have a lot of 
young people coming in banging in the system who would not draw 
benefits for many years. That is a subject for another day.
    We have also added, just for your information, we have two 
more witnesses. Mr. Gohmert of Texas is also part of this 
panel. He will be our last witness.
    I now yield five minutes to the gentlewoman from Texas, who 
is also a member of the Budget Committee, Ms. Jackson Lee.

   STATEMENT OF HON. SHEILA JACKSON LEE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I am 
delighted to be here and thank you to the Ranking Member and 
the Chairman for this hearing.
    I am a Member who is honored to serve on this important 
committee and I share my priorities for the upcoming fiscal 
year. I want to do something we do not often do enough, and 
that is to say thank you. Thank you for the great work the 
Budget Committee has already done.
    Mr. Chairman, as you well know, when you came in the 117th 
Congress America was in the grip of a lethal COVID-19 pandemic, 
which has now claimed the lives of over a half a million 
persons, including fathers and mothers and grandparents, 
siblings, friends, neighbors, loved ones, Americans, healthcare 
workers, and first responders, Americans, and those within our 
border. The pandemic left our nation's economy in shambles, 
millions were left jobless, food insecure, schools were closed, 
businesses--well, small businesses were shuttered, and vaccine 
distribution was a disaster. But bold action was needed.
    I am very glad to be part of the Committee majority, the 
Democratic congressional majority and the incoming Democratic 
administration that--led by President Biden--that promised the 
American people that the days of chaos and confusion and blame 
are over, that help was on the way. And help has been delivered 
in the name of the American Rescue Act, now helping over 18 
million people unemployed. And now I can say the words of help 
is here.
    Delighted that money is being put in our pockets and shots 
in our arms. The plan will mount a national vaccination 
program. $2,000 that was promised is now coming to the bank 
accounts of our fellow Americans, 40 million Americans can 
expand access to safe and reliable childcare and affordable 
healthcare, the plan delivers $170 billion for education, $45 
billion for childcare, and the lion's share of those dollars 
are coming to cities and counties, like Houston and Harris 
County, where they are getting billions of dollars. And I am 
delighted that my motion to instruct was accepted in the Budget 
Committee, that indicated that we would prohibit any removal of 
the language in the American Rescue Act that would provide 
direct payment to our local governments.
    Mr. Chairman, I want you to know that Houston and Harris 
County wanted to give you and the congressional Democrats a 
resounding applause for allowing those direct payments to come 
to our local jurisdictions. As well our school districts are 
getting money. And, of course, the premium pay for eligible 
workers performing essential work, up to $13 per hour will be 
provided. And what is so necessary in Houston and Texas after 
the freeze, thank you for making necessary investment in water, 
sewer, and broadband.
    But now more work has to be done, even in spite of the 
childcare tax credit of $3,600 and $3,000, which will put as 
much as $10,000 in the pockets of our fellow Americans, and the 
extended unemployment. What has to be worked on is of course 
the issue of income and retirement security.
    I would like to join in Congressman from Connecticut on his 
legislation that I have supported. But in the meantime we 
realize that many years our 65 year olds and older do not get 
any COLA. So I would like my bill to be considered, the Social 
Security Safety Dividend Act, which provides a one-time payment 
of $250 to seniors when there is no COLA. By 2035 Americans age 
65 years and older will outnumber children under the age of 18 
in the first time in U.S. history. And ensuring that current 
and future generations of seniors are able to enjoy a 
financially secure retirement is one of our greatest policy 
challenges.
    Social Security should be protected. Women and minorities 
are especially at risk of retirement. In addition, Medicare and 
Medicaid must be lifelines for seniors. Seniors use Medicaid in 
their nursing home and it is extremely important.
    I would also ask that my COVID-19 Delivery Act of 2021 be 
considered in this budget process. That is to provide for 
pandemics going forward to establish a firm delivery process 
that impacts the budget. We lost lives and lost income because 
we could not deliver, not only vaccines now, but testing. And 
so that is an important legislation that has a structure for 
apps, a structure for a communication between agencies.
    I also want to make sure that we have a strong 
infrastructure plan. It has been demonstrated time and time 
again that for every dollar invested in infrastructure, at 
least $1.63 is economic activity. In the Obama-Biden Recovery 
Act of 2009 it created one million jobs when we invested in 
infrastructure. I want to make sure that we include in 
infrastructure light rail, major flood and water, which is not 
often focused on, small bridges repair, and, yes, housing, 
which is a new addition to ensuring that those concerned with 
infrastructure also realize that people are unhoused.
    Congress must act boldly and decisively in the area of 
transportation to ensure that the necessary investments are 
made and equitably distributed, not just to bi-coastal areas, 
but all areas, including funding for light rail. Those of us 
that are in the south and the Midwest are often left out 
because of those formulas. I know there is a Transportation 
Committee, but I believe we can be very helpful in guidance.
    Also Title VI of the Civil Rights Act should be part of any 
transportation funding. The Texas Department of Transportation 
has ignored its responsibility under the law and obligation to 
marginalized communities, low-income communities, Independence 
Heights, Near Northside, and as well cultural and historic 
communities. That is absolutely unacceptable.
    Criminal justice reform and reparative justice, we should 
make sure that in criminal justice reform in budgets that we 
realize that restorative justice is important and mass 
incarceration should not be the future of the 21st century.
    Let me finally, as I conclude, Mr. Chairman, say that I am 
the author and principal sponsor of H.R. 40, which establishes 
a commission to study the effects of slavery on modern day 
Americans to recommend proposals to eliminate remaining badges 
and vestiges of oppression. Let me be very clear, we understand 
that this is looking at the landscape of what happened and the 
continuing impact of disparities that we will find in the 
African American community well documented. A Harvard 
University study at the Harvard University Medical School 
indicated that if some form of reparations, access to 
healthcare had been given to African Americans before COVID-
19--this is a peer reviewed study--they would not have suffered 
in hospitalization and death that occurred in that community in 
the COVID-19.
    Finally, on March 4, 1865, in the incomparable second 
inaugural address, President Lincoln spoke of the harm to the 
nation resulting from the bondsman's 250 years of toiling in 
slavery. And so it is therefore appropriate that 150 years 
later we examine, we study, in order to respond what that meant 
and what the disparities meant.
    I ask, Mr. Chairman, that the Harvard University Study be 
submitted into the record, and I also ask unanimous consent 
that my entire statement be submitted into the record to make 
sure that happens.
    With that in mind, I thank you so very much for yielding to 
me and I yield back, Mr. Chairman.
    Thank you.
    [The statement of Sheila Jackson Lee and article submitted 
for the record follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Yarmuth. Thank you for your testimony. It will be 
included in the record.
    Does anyone have any questions of Ms. Jackson Lee?
    All right, seeing none, I now welcome to the Budget 
Committee and yield five minutes to the gentleman from Texas, 
Mr. Gohmert.
    Please unmute. Mr. Gohmert, unmute your mic.

 STATEMENT OF HON. LOUIS GOHMERT, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Gohmert. OK, thank you, Chairman. And good morning, 
Chairman Yarmuth, Ranking Member Smith, Members of the 
Committee. It is truly an honor to speak before you today 
regarding serious issues relating to our nation's budget.
    With our national debt now heading toward $30 trillion the 
supreme urgency of this matter actually grows by the second. 
Over the last 20 years our national debt has skyrocketed to 
unsustainable levels. The spike in spending has put our economy 
at risk, and worse, saddled the next generations with 
undeserved fiscal burdens. Like I said, the situation worsens 
by the second.
    In the past I introduced the Balanced Budget Amendment that 
would accomplish the following: first it would require that 
total spending for any Fiscal Year not exceed total revenue for 
that year and that total spending never exceed 18.5 percent of 
GDP, mandate that debt ceiling--is No. 2--mandate the debt 
ceiling and taxes can only be raised with 3/4 of both houses of 
Congress instead of with simple majorities, and then, third, 
require the President to submit a balanced budget or else risk 
impeachment.
    The decision to introduce my Balanced Budget Amendment was 
made in order to try to force us to make the needed fiscal 
reforms before insolvency makes those decisions for us. This 
resolution takes a commonsense approach and will be a major 
step forward in regaining the trust of the American people.
    Another important bill is the Zero-Baseline Budget Act, 
which is designed to cut wasteful spending by mending the 
Balanced Budget and Emergency Deficit Control Act of 1985 and 
eliminating annual automatic increases in the budget. This 
legislation will accomplish the following: first, amend the 
Balanced Budget and Emergency Deficit Control Act of 1985 to 
change the method of CBO that they use to calculate the 
official discretionary budget baseline that accompanies the 
budget process every year. No. 2, eliminate any automatic 
increases in the baseline for inflation or any other reason, 
and exclude emergency and supplemental spending. That has been 
a problem because we appropriate supplemental spending or 
emergency spending and then that gets lumped into the budget 
for the next year, which defeats the purpose of calling it 
emergency spending. But, No. 3, when the bill would come into 
law the CBO baseline for the next Fiscal Year will simply be 
the aggregate of the appropriation bills that are in effect for 
the current year, excluding emergency and supplemental 
spending. Therefore the Zero-Baseline Budget Act makes level 
funding the official CBO baseline for discretionary spending.
    It is long past time to get our fiscal house in order. It 
is apparent America is on a road headed for ruin if we continue 
to spend money the federal government doesn't have.
    I would also like to point out--and I appreciated Mr. 
Larson's testimony about Social Security--but there are parts 
of Social Security that are not paid for by the people that are 
receiving it. And, in fact, I was surprised when I got to 
Congress to find out that there is no cash--there is no money 
in the Social Security Trust Fund. I was surprised, I thought 
it was more modern development. But apparently when the very 
first money started rolling in in the 1930's from Social 
Security tax it went right out the door being spent in the 
General Fund. And that is something we really need to stop. And 
I agree with Mr. Larson 100 percent that Social Security 
benefits, if they are benefits to which the receiver had paid 
in, that they shouldn't be taxed. And, of course, that helped--
when that taxing occurred in 1993 or `94, that helped the 
Republicans take the majority back. Seniors got rather upset 
about Bill Clinton and the Democrat majority taxing their 
benefits. So I would be glad to work with Mr. Larson to pass a 
bill to stop that and I know our seniors would appreciate it.
    In the meantime I am very grateful for this time and I 
really appreciate you all listening to rank and file Members 
about things we need to do.
    Thanks so much. I yield back.
    [No prepared statement of Louis Gohmert was submitted for 
the record:]
    Chairman Yarmuth. Thank you, Mr. Gohmert.
    Does anybody have any questions of Mr. Gohmert? Mr. Good.
    Mr. Good. Thank you, Chairman, and thank you, Mr. Gohmert, 
and thank you again to my fellow Committee Members and the 
other panelists who have appeared today.
    Mr. Gohmert, I want to commend you for your commonsense 
specific proposals to be solution oriented. I have long 
maintained that our national debt and our spending is one of 
the greatest threats to our republic and a day of reckoning is 
coming. Many others have already pointed out on this Committee 
and in previous debates and discussions, you know, we are 
racing toward $30 trillion in debt, which equates to some 
$90,000 per citizen. And I have heard it said by Committee 
Members here and Members on the House floor that, hey, we will 
never ask people to pay that back, as if it is Monopoly money, 
as if it is not real, as if it just doesn't count. And, you 
know, the interest on the debt alone is climbing as a 
percentage of our budget and our spending now and it is 
projected to just multiply in the decades ahead. And it is 
really a travesty for us to leave that to future generations.
    You know, we are, again, at some $90,000 per citizen on 
average at a 330 million citizen for $30 trillion worth of 
debt. And so I just want to thank you for your commonsense 
proposal. It is timely. We are looking at $3 trillion more in 
spending that is being threatened by the majority. And I am in 
favor of investment in infrastructure when you have the 
resources and the fiscal management to do it, but we are not in 
a position to do that, sadly because of what we have done.
    And both parties bear responsibility. And so I don't excuse 
when our party has been guilty. But together we have got to be 
solution oriented. And I thank you for what you shared this 
morning and I support the suggestions that you have made.
    Thank you, Chairman.
    Mr. Gohmert. Thank you, Mr. Good. Thank you.
    Chairman Yarmuth. Thank you, Mr. Good.
    Any other Member have a question of Mr. Gohmert?
    Well, seeing none, thank you, Mr. Gohmert. You and the rest 
of the panel are excused.
    And that is actually the last witness, so we want to thank 
all the witnesses for being here today and all the Members who 
took the time to listen. This completes our business for today.
    I want to ask unanimous consent that Members have until the 
end of the day today to submit any written materials for the 
record.
    Without objection, so ordered.
    And, again, that concludes our business for today.
    Without objection, the hearing is adjourned.
    [Whereupon, at 12:13 p.m., the Committee was adjourned.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
